 

IN THE

SUPREME COURT OF THE UNITED STATES

 

JUAN MARQUIS HOLIDAY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

 

PROOF OF SERVICE
PETITION FOR A WRIT OF CERTIORARI

 

I, DOUGLAS C. BROWN, do swear declare that on this date, August 2, 2021,
I served the enclosed petition for writ of certiorari, appendix and motion to
proceed in forma pauperis on each party to the above proceeding, or that party’s
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in United States mail properly
addressed to each of them and with first class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within three calendar days.

The names and addresses of those served are as follows:
Solicitor General United States
Room 5614

Department of Justice

950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
202 514 2202

United States Attorney’s Office
Southern District of California
880 Front St.

San Diego, CA 92101

AUSA Daniel Zipp

Appellate Section

619 557 5610

Juan Marquis Holiday
61872-298

USP Victorville

PO Box 3900
Adelanto

Ca. 92301

I declare under penalty of perjury that the foregoing is true and correct.

I further certify that I am a member of the Bar before the U.S. Supreme Court,
as of February 21, 1978, and that pursuant to 18 U.S.C. 3006A, I was appointed
counsel for petitioner in the district and appellate courts.

Executed on August 2, 2021

     

glas C. Brown
225\Broadway, Ste 2100
San Diego, CA 92101
(619) 231-6158
dcbrow@pacbell.net
Attorney for Petitioner
